Attorneys for Petitioners
Ira Jay Kurzban
Counsel of Record
Kurzban, Kurzban, et al.
131 Madeira Avenue
Coral Gables, FL 33134
305-444-0060
ira@kktplaw.com
Party name: Pankajkumar S. Patel, et al.
Attorneys for Respondent
Brian H. Fletcher
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Party name: Merrick B. Garland, Attorney General
Taylor Ann Rausch Meehan
Counsel of Record
Consovoy McCarthy PLLC
1600 Wilson Blvd.
Suite 700
Arlington, VA 22209
317-408-3650
taylor@consovoymccarthy.com
Party name: Court-appointed amicus curiae in support of the judgment below

